                                                EVALUATION




               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR




 CONTROLS OVER CHECK WRITING




Report No. C-EV-MOA-0009-20 II                   October 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR
                                                                                          OCT 31 .2012

Memorandum

To:            Pamela K. Haze
               Deputy Assistant Secretary for Budget, Finance, Performance, and Acquisitions

From:          Kimberly Elmore          ~p~ ~
                                    i/, """
                                  1
               Assistant Inspector Ge~~;ill~r A.udits, Inspections, and Evaluations

Subject:       Final Evaluation Report- Controls over Check Writing
               Report No. C-EV -MOA-0009-2011

   This memorandum informs you of our findings and recommendations for the controls over
check writing in the U.S. Department of the Interior (Department). The objective of our review
was to evaluate the internal controls related to third-party drafts (TPDs) and convenience checks.
We evaluated these programs because of allegations of theft in the TPD program at Great Sand
Dunes National Park near Mosca, CO. Our evaluation included TPD and convenience check
programs at the Bureau of Land Management, National Park Service (NPS), and Bureau of
Reclamation.

    By law, the Department must pay invoices by electronic funds transfer. There are times,
however, when the law allows payments by convenience checks connected to U.S. Government
charge card accounts. Until the end of fiscal year (FY) 2011, some bureaus used TPDs to make
these payments.

   We found that NPS' TPD program had weaknesses in its policy and procedures and its
implementation that included improper oversight and segregation of duties. Given our concerns
about control weaknesses and allegations of fraud in the TPD program, we support NPS'
decision to discontinue the program.

   With NPS discontinuing its TPD program, all bureaus now use convenience checks
connected to Government charge card accounts under certain circumstances. The policy and
procedures for the convenience check program are stronger than those that existed in the TPD
program. We did find, however, opportunities to further strengthen the convenience check
program.

Background

    Convenience checks are available as part of selected Government charge card accounts that
are used to pay for goods and services in support of the Department's mission. Delegation of
convenience check authority must be approved by the appropriate bureau procurement chief or




                        Office of Audits, Inspections, and Evaluations I Washington, DC
equivalent, or the chief’s designee. As with the Government charge card, this authority is not
transferable.

     Check writers must complete training on convenience checks prior to receiving authorization
to issue checks. All regulations, policies, special requirements, and approvals that apply to
purchasing must be followed when using convenience checks. Convenience checks are limited to
a maximum amount of $3,000 for supplies; $2,500 for services; $2,000 for construction; $10,000
for emergency incidents; and $25,000 for the Alaska Fire Crew.

    A check fee of 1.9 percent of the dollar amount of each check written is applied. Because of
this fee, as well as Federal (31 C.F.R. § 208) and Department policy, convenience checks may
only be used under certain circumstances. Convenience checks may be used when charge cards
are not accepted by a merchant, for emergency incident response, and for other approved
purposes that comply with the Debt Collection Improvement Act of 1996.

    Convenience checks include an original and a carbon copy or equivalent that must be
retained as an official Government record. Supporting information must be attached to the copy
and marked “Paid by Convenience Check,” along with the check number. The check copy, all
original receipts, and original supporting documentation must be centrally filed with the original
statement of account in accordance with bureau or office records retention policy. Cleared
checks are not returned to the account holder. Check images may be viewed and printed in
PaymentNet, J.P. Morgan Bank’s electronic access system. In addition, each convenience check
and charge card transaction must be entered into a register for tracking.

Findings

       Overall, we found that the controls over the use of convenience checks, if implemented in
accordance with established procedures, are superior to the controls that were in place for TPDs.
Specifically, convenience check procedures throughout the bureaus we evaluated include—

   •   a detailed review of monthly charge card statements requiring approving officials to
       review each transaction;
   •   a monthly program review by the agency/organizational program coordinator; and
   •   retaining the original receipts along with a carbon copy of the check as supporting
       documentation for each check written.

Each of the above controls, if implemented, should help reduce the threat of fraud, waste, or
abuse in the check-writing program.

    The Department is also starting a new pilot program that includes a process to reconcile DOI
charge cards and convenience check purchases electronically. The Office of the Inspector
General will be testing the pilot program. The Office of Inspector General will work with the
Department to ensure that internal controls are in place with the electronic charge card
reconciliation.




                                                2
    Government charge card training includes convenience check training for check writers and
their approving officials. The current minimum requirement for charge card training is once
every 3 years. We were told by the Department that it is considering requiring check writers and
approving officials to complete this training more frequently. Even with well-designed
procedures, more-frequent training would promote fraud awareness and reinforce the importance
of each person’s role in the control system.

Recommendations

    To enhance internal controls and to ensure awareness of these controls, we recommend the
following:

   1. All bureaus should evaluate their monthly reconciliation processes, considering lessons
      learned from the Department’s pilot program.
   2. The Department should require Government charge card training for check writers and
      their approving officials more frequently than the current minimum of every 3 years.

Department’s Response

    The Department concurred with both recommendations (Attachment 1). Concerning
Recommendation 1, the Department noted that it has already planned a pilot program for online
cardholder reconciliation and approving officials’ approvals. It will implement the pilot
throughout FY 2013 and evaluate the pilot in FY 2014.

    Concerning Recommendation 2, the Department said it would further enhance training for
cardholders, approving officials, and agency program coordinators by requiring annual refresher
training. In addition, it said it will—

   •   require cardholders to sign Rules of Behavior for charge card use;
   •   issue periodic, all-employee email to remind cardholders of responsible use;
   •   update the Department’s charge card policy in FY 2013; and
   •   in FY 2014, design and implement training for mandatory, annual online training for
       cardholders.

    We consider both recommendations resolved but not implemented (Attachment 2). The
recommendations will be referred to the Assistant Secretary for Policy, Management and Budget
for tracking of implementation.

Scope and Methodology

    We conducted this evaluation in accordance with “Quality Standards for Inspections” by the
Council of Inspectors General on Integrity and Efficiency. We visited four offices within the
three bureaus. We reviewed policies and procedures and interviewed officials responsible for the
charge card and TPD programs. We believe that the work we performed provides a reasonable
basis for our conclusions and recommendations.



                                               3
    The legislation creating the Office of Inspector General requires that we report to Congress
semiannually on all audit reports issued, actions taken to implement our recommendations, and
recommendations that have not been implemented.

   If you have any questions about this report, please contact me at 202-208-5745.




                                                4
                  United States Department of the Interior
                                                                                    Attachment 1
                                 OFFICE OF THE SECRETARY
                                    Washington, DC 20240




To:           Kimberly Elmore
              Assistant Inspector General - Audits, Inspection, and Evaluations

Through:      Pamela K.   Ha~~~<:..>--""~t_e_
              Deputy Assistant Secretary- Budget, Finance, Performance and Acquisition

                                                            r£_~

Subject:      Response to Office oflnspector General (OIG) Draft Evaluation Report, Controls
              over Check Writing (Report No. C-EV-MOA-0009-2011)


Thank you for the opportunity to review the OIG draft evaluation report, Controls over Check
Writing (Report No. C-EV-MOA-0009-2011). In the draft report, the OIG outlines several
findings and communicates two recommendations. The Department's response to the
recommendations, including plarmed corrective actions, follows:

Recommendation 1: All bureaus should evaluate their monthly reconciliation processes,
considering lessons learned from the Department's pilot program.

Management's Response: The Department concurs. As noted in the draft OIG report, actions
are already underway to pilot online cardholder reconciliation and approving official approvals,
using the JP Morgan PaymentNet electronic access system. PAM will work with the bureaus to
pilot online reconciliations and approvals Department-wide throughout FY 2013. During FY
2014, PAM will collaborate with the bureaus to assess the results of the pilot and develop an
appropriate plan for Department-wide implementation.

Target Pilot Completion Date: September 30, 2014

Target Implementation Date: To be deterrnin,ed. Timeline will be established after assessing the
results of the pilot.

Responsible Official: David Carter, Charge Card Program Manager, PAM.

Recommendation 2: The Department should require Government charge card training for
check writers and their approving officials more frequently than the current minimum of every 3
years.

Management's Response: The Department concurs. DOl policy is in compliance with OMB
Circular A-123, Appendix B, revised January 15, 2009, entitled Improving the Management of
Government Charge Card Programs, which requires mandatory training for current cardholders
and refresher training every three years for current cardholders, approving officials, and agency
program coordinators. However, to further reinforce this requirement and to enhance charge
card training, the Department supports implementation of mandatory refresher training on an
annual basis.

By December 15, 2012, PAM will coordinate with DOl Learn to implement an annual self-
certification requirement tor all cardholders by requiring cardholders to sign a Rules of Behavior
document for charge card use. The Department will also .issue periodic all-employee e-mail
communications reminding cardholders of the expectations for responsible charge card use.
During FY 2013, PAM will update the DOl Charge Card policy; and will work collaboratively
with the bureaus and DOl Learn in FY 201 4 to design and implement training modules for
mandatory annual online training for cardholders.

Target Completion Dates: December 15, 2012, for Rules ofBehavior certification; and
September 30, 2014, for implementation of annual mandatory online training.

Responsible Official: David Carter, Charge Card Program Manager, PAM.

Thank you for the opportunity to comment. If you have further questions or require additional
information, please contact David Carter at (202) 254-5550 or by email at
david carter@ios.doi.gov.
                                                                                Attachment 2


Status of Recommendations

       In response to our draft report, the Department concurred with both of our
recommendations and agreed to implement them. The response included corrective action plans
and an action official for each recommendation (Attachment 1). We consider both
recommendations resolved and not implemented.

  Recommendations                  Status              Action Required
                                                      The recommendations
                                                      will be referred to the
                                Resolved, not          Assistant Secretary,
         1 and 2
                                implemented          Policy, Management, and
                                                      Budget for tracking of
                                                         implementation.




                                             1
